                       United States
                              S      Deppartment of the Innterior
                                   Office of Inspector
                                             I         G
                                                       General
                                        Westtern Regioon
                                            Fedderal Building
                                     2800 Cottagge Way, Suite E-2712
                                                              E
                                      Sacramentto, California 95825
                                                              9



                                                                Report No.
                                                                       N WR-VS-BLM-0001--2008
                                                                                 May 30, 2008
Memoranndum
To:             Assisttant Secretarry for Land and
                                                a Mineralss Managemeent
                Assisttant Secretarry for Policyy, Managemeent and Budgget
                        (Attentionn: Associate Director
                                                 D      for Finance, Poolicy and Opperations)

From:           Michaael P. Colom
                                mbo
                Regio
                    onal Manager

Subject:        Verifiication Revieew of Sevenn Recommenndations Connsidered Impplemented Frrom
                Our February
                    F          20004 report Auddit of Oil andd Gas Permiitting Processs, Bureau of
                Land Managemen
                       M          nt (Report No. W-IN-BL   LM-0009-20003)
       T Office off Inspector General
       The                         G        has completed
                                                c            a verificationn review of reecommendattions
presentedd in the subjeect audit repport. The objjective of thhe review waas to determiine whether
seven reccommendatio  ons were im mplemented, as reported to   t the Officee of Financiaal Managemeent,
Office off Policy, Man nagement annd Budget.

Backgrround
        Our February
        O            y 2004 reportt Audit of Oiil and Gas Permitting
                                                            P             Prrocess, Bureeau of Land
Managem  ment made eight
                     e      recommmendations too assist the Bureau
                                                             B        of Laand Manageement (BLM    M) in
removingg impedimen   nts to processsing applicaations for perrmit drilling in an efficieent and
environmmentally respponsible mannner. Based on BLM’s May    M 26, 20004 response to     t our final
report annd additionall informationn provided, Recommend
                                                R           dation 6 was considered resolved
                                                                                         r        andd
implemennted and Recommendatiions 1, 2, 3, 5, 7, and 8 were  w resolveed but not im    mplemented, and
Recomm mendation 4 wasw unresolvved. Therefoore, we referrred these seeven recomm      mendations too the
Assistantt Secretary for
                     f Policy, Management
                                 M               and Budget (PMB) for resolution.
                                                                           r
       Inn memoranddums dated March
                                  M     9, 20006, Septembeer 29, 2006, December 19, 1 2006,
July 30, 2007,
         2     Septem
                    mber 17, 20007, and an em mail dated March
                                                          M      22, 20005, the Offiice of Financcial
Managem ment (PFM) reported to the t Office off Inspector General
                                                          G       that the seven oppen
recommeendations (1,, 2, 3, 4, 5, 7,
                                  7 and 8) werre implemennted and conssidered closeed.
Scope and Methodology
        The scope of this review was limited to determining whether BLM took sufficient actions
to implement the recommendations. To accomplish our objective, we reviewed the supporting
documentation that BLM officials provided us relating to each recommendation. We also
interviewed BLM program officials to gather additional information and to seek clarification on
some of the information that BLM initially provided.
         We did not visit any sites or conduct any detailed audit fieldwork to determine whether
the underlying deficiencies that were initially identified have actually been corrected. As a
result, this review was not conducted in accordance with the Government Auditing Standards
issued by the Comptroller General of the United States.

Results of Review
      Our current review found that BLM has implemented Recommendations 1, 2, 5, 7, and 8.
However, BLM has not fully implemented Recommendations 3 and 4. The status of the
recommendations is summarized in the Appendix.
Recommendation 1: “Establish policies and procedures to institutionalize a continuous
evaluation and update of land use plans in concert with BLM’s current update initiative.”
        The BLM’s land use plans are to be evaluated and updated pursuant to the Code of
Federal Regulations and the current land use planning handbook. The handbook discusses the
process of reviewing land use plans to determine whether decisions and National Environmental
Policy Act (NEPA) analysis are still valid and plans are being implemented. Land use plans are
to be evaluated and updated at least every 5 years. Also, the Fiscal Year (FY) 2008 Annual
Work Plan (AWP) indicates the updating of land use plans is a priority for BLM through 2015.
Therefore, we concluded that Recommendation 1 has been implemented.
Recommendation 2: “Establish one system capable of tracking and monitoring the entire
APD process, which should include operator access to application status. This system would
include capability of producing status reports, such as, aging schedules and pending activity
reports.”
       In response to our February 2004 report, BLM issued Instruction Memorandum (IM)
2005-046, “Policy for Entry of Data into Applications for Permit to Drill (APD) Processing
Tracking and Monitoring Fields in the Automated Fluid Minerals Support System (AFMSS)
Database,” which provides policy for field offices to enter APD data in AFMSS on a consistent
basis. This IM expired in FY 2006; however, BLM officials stated that the policy has been
extended for two years (or until FY 2008) at which time the Bureau plans to incorporate this
guidance in the BLM manual. The AFMSS generates both standard and custom reports for
purposes of monitoring permit applications.
       While not part of AFMSS, BLM has an on-line feature called the Wells Information
System (WIS) which allows operators to submit and track applications. The WIS has two
components; one for Indian operators and the other for non-Indian operators. The on-line feature
was suspended for public use due to the Cobell v. Norton lawsuit. The non-Indian component
was reactivated about six to eight months ago. We concluded that Recommendation 2 has been

                                                2
 
implemented. However, BLM should finalize the policy outlined in IM 2005-046 by
incorporating the guidance in its manual or some other document.
Recommendation 3: “Establish a nationally coordinated and centrally over-sighted APD
permitting process.”
        As mentioned above, BLM issued IM 2005-046, “Policy for Entry of Data into
Applications for Permit to Drill (APD) Processing Tracking and Monitoring Fields in the
Automated Fluid Minerals Support System (AFMSS) Database,” which provides policy for field
offices to enter APD data in AFMSS on a consistent basis. A BLM official stated that he uses
AFMSS reports to manage the APD process. This IM expired in FY 2006; however, BLM
officials stated that the policy had been extended for two years (or until FY 2008) at which time
they plan to incorporate this guidance in the BLM manual.
        In response to our February 2004 report, BLM pursued a strategy of using quality
assurance teams (QAT) to review and evaluate the APD process at select field offices. The most
recent internal control review was done at the Jackson and Milwaukee field offices in April
2007. However, BLM officials told us QATs of the APD process are not conducted on a cyclic
basis, and there is no written policy requiring such reviews. Instead, these reviews are part of
their overall internal control review process which is conducted on an ongoing basis in
accordance with Office of Management and Budget Circular A-123. The APD process is not
always included as a component of these reviews; therefore, there is no periodic oversight of this
process. Accordingly, we concluded that Recommendation 3 has not been fully implemented.
BLM should establish a periodic review cycle for over-sighting the APD process.
Recommendation 4: “Ensure that field offices conduct and periodically update workload
analyses to determine the appropriate size and composition of the workforce needed to
efficiently process APDs.”
        BLM conducted an initial workload analysis in 2005 which was updated a year later. The
analysis included seven pilot offices comprising 70 percent of the APD processing workload.
BLM officials stated the workload analysis was created using a list of anticipated needs
submitted by the pilot offices. The analysis has not been updated since 2006, and there are no
plans to do so. However, BLM officials stated that the seven pilot offices annually update their
budget documents which include the workload needs of each office. In April 2007, an internal
review team recommended that APD workload analyses be conducted for the Jackson and
Milwaukee field offices, which are not part of the pilot program. Because BLM has no intention
to periodically update workload analyses as recommended in our February 2004 report, we
concluded that Recommendation 4 has not been fully implemented. In addition, BLM should
expand the workload analysis to include other field offices or shift those field offices included to
adjust for changes in APD processing workloads.
Recommendation 5: “Consolidate, clarify, and issue nationwide APD application guidelines
that include all BLM permitting requirements.”
       As previously mentioned, BLM issued IM 2005-046, “Policy for Entry of Data into
Applications for Permit to Drill (APD) Processing Tracking and Monitoring Fields in the
Automated Fluid Minerals Support System (AFMSS) Database,” which provides policy for field

                                                 3
 
offices to enter APD data on a consistent basis. However, this policy has not been formally
extended or incorporated into the BLM manual. Although not provided as support in closing out
this recommendation, BLM has established “Surface Operating Standards and Guidelines for Oil
and Gas Exploration and Development” (commonly known as the Gold Book). The Gold Book
was developed to assist operators by providing information on the requirements for obtaining
permit approval and conducting environmentally responsible oil and gas operations on Federal
lands. In 2007, the Gold Book was revised to incorporate changes resulting from the new
Onshore Oil and Gas Order No. 1 regulation. This Order stipulates the requirements necessary
for the approval of all proposed oil and gas exploratory, development, or service wells on
Federal and Indian onshore oil and gas leases. Therefore, we concluded that Recommendation 5
has been implemented.

Recommendation 7: “Establish procedures for completing environmental studies that are
timely, consistent among field offices, and comply with applicable environmental laws.”
        In response to our February 2004 report, BLM issued IM 2006-071, “Process
Improvement for Oil, Gas, Geothermal, Geophysical, and Related Rights-of-Way Approvals,”
which established procedures for improving the APD process and ensuring that environmental
studies were timely, consistent among field offices, and complied with applicable environmental
laws. It compiled a list of recommendations to expedite the APD process while adhering to
environmental laws. Specifically, it recommended field offices increase the use of the Energy
Policy Act of 2005, Section 390 Categorical Exclusions and Plan of Development environmental
assessments which reduce redundant environmental assessments if certain criteria are met, and
allows for bundling of APDs linked to one environmental assessment plan. Field offices were to
establish improvement teams and submit findings and efficiency improvements to their
respective state offices that would then report results and consistency and process solutions being
implemented to the Washington Office. This IM expired in FY 2007; however, BLM officials
stated that the policy has been extended for a year (or until FY 2008).
        In FY 2005, BLM conducted a self assessment to determine if various Oil and Gas
Surface Management Program’s processes, including APD and NEPA, were conducted in an
effective manner and identify areas needing improvement. There were several findings and
recommendations; one of which was the need to improve the process for developing and
reviewing NEPA documents. State and field offices were then to implement strategies and
procedures to address the issues and improve the quality of APD processing.
        BLM conducted another self assessment during FY 2006, to analyze the establishment of
procedures for improving the APD process and ensuring that environmental studies were timely,
consistent among field offices, and complied with applicable environmental laws. As a result,
BLM found that the majority of field offices were implementing recommended strategies and
some offices were taking steps to implement innovative solutions. Field offices reported that
they were: (1) using software programs to gather information and track documentation for APD
and NEPA actions, (2) working with the Forest Service to identify inefficient measures related to
the APD process, and (3) using categorical exclusions, geographical area plans, or master
development plans to streamline the APD and NEPA processes. In addition, state and field
offices reported that they were holding workshops and meetings to initiate and develop external
communication with operators, independent groups, and the general public. Areas needing

                                                4
 
improvement were the increased use of multiple-APD packages and site-specific field
development environmental assessments and impact statements. We concluded that
Recommendation 7 has been implemented. However, BLM should standardize and apply these
streamlined environmental procedures across all field offices as determined appropriate.
Recommendation 8: “Amend the Department’s Strategic Plan to include a clearly defined and
measurable goal to process APDs not in backlog status or, in the alternative, establish a goal
in BLM’s annual or long-term operating plans to process APDs not in backlog status.”
        The Department of Interior’s Strategic Plan for FY 2007-2012 included an outcome goal
to manage or influence resource use to enhance public benefit, responsible development, and
economic value. In addition, there were two performance goals or measures related to the
percent of fluid mineral leases with approved applications for permits to drill and the percent of
fluid mineral permit and lease applications processed. BLM’s target is to have 47 percent of
leases approved and 94 percent of applications processed by FY 2012. Although the goals did
not specifically indicate APDs not in backlog status, we considered the goals to include both
current and backlogged APDs. Additionally, BLM’s FY 2008 AWP and Budget Justification
included goals to process a number of APDs. Therefore, we concluded that Recommendation 8
has been implemented.

Conclusion
        We informed BLM officials of the results of this review at an exit conference on May 12,
2008. We consider Recommendations 3 and 4 not fully implemented; therefore, we request that
PFM reinstate these recommendations and take appropriate follow-up action. BLM should
provide a plan identifying actions to be taken, target dates for implementation, and titles of
officials responsible for implementation for these recommendations as outlined in the Appendix.

Responding to the Report
        We request that PFM provide a written response to this report by June 30, 2008,
indicating whether it reinstated Recommendations 3 and 4. If applicable, the response should
provide PFM’s reasons for not reinstating these recommendations. If you have any questions
about the report, please contact me at (916) 978-5653.



cc:   Director, Bureau of Land Management (MS 5628-MIB)
      Audit Liaison Officer, Assistant Secretary for Land and Minerals Management
       (MS 6628-MIB)
      Audit Liaison Officer, Bureau of Land Management – Attn: LaVanna Stevenson
       (MS 1000-MIB)
      Chief, Audit Follow-up, Internal Control and Financial Reporting, Office of Financial
       Management, Office of the Assistant Secretary for Policy, Management and Budget
       (MS 2557-MIB)




                                                 5
 
                                                                    Appendix
                                                                                    

       Status of Prior Audit Report Recommendations
                                  

    Recommendation             Status                   Action Required
          1          Resolved and Implemented   No action required.
          2          Resolved and Implemented   Finalize policy outlined in IM
                                                2005-046 by incorporating in
                                                BLM manual.
          3          Not fully implemented      We request that PFM reinstate
                                                the recommendation. BLM
                                                should provide a plan
                                                identifying actions to be taken,
                                                target dates for
                                                implementation, and titles of
                                                officials responsible for
                                                implementation.
          4          Not fully implemented      We request that PFM reinstate
                                                the recommendation. BLM
                                                should provide a plan
                                                identifying actions to be taken,
                                                target dates for
                                                implementation, and titles of
                                                officials responsible for
                                                implementation.
          5          Resolved and Implemented   No action required.
          7          Resolved and Implemented   BLM should standardize and
                                                apply environmental
                                                procedures consistently across
                                                the state and field offices.
          8          Resolved and Implemented   No action required.
 




                                 6
 
